            u.s. Small Business Administration
            Office of Inspector General            Memorandum
    To: 	   Eric R. Zamikow                                           Date:   September 22, 2010
            Associate Administrator, Office of Capital Access

 From:      Debra S. Ritt lSI Original Signed
            Assistant Inspector General for Auditing

Subject:    Notice of Finding and Recommendation on Lender-Approved ARC Loans to
            Affiliates
            ROM 10-18

            The Office of Inspector General (OIG) conducted an audit of the America's
            Recovery Capital (ARC) Loan Program to determine whether SBA: (1)
            implemented adequate program guidance to achieve the ARC Loan Program's
            legislative goals; and (2) conducted effective oversight of the ARC Loan Program.
            This Notice of Finding and Recommendation (NFR) is intended to provide the
            Agency with early notification of findings and recommendations related to the
            approval of ARC loans to potentially affiliated companies. We identified 38
            lender-approved ARC loans made to apparently affiliated companies that were not
            approved by SBA, as required by the ARC Loan Program procedural guide.

            We made three recommendations to the Associate Administrator for Capital
            Access to: (1) review each of the 38 identified loans to determine if they were
            made to eligible companies; (2) for any loans that SBA determines were made to
            ineligible companies, cancel the loan guaranties and collect any associated interest
            paid to the lenders; and (3) conduct additional reviews of ARC loans outside the
            scope of this NFR (for example, loans disbursed after April 30, 2010 and/or
            undisbursed loans) to identify other ARC loans made to affiliated companies that
            were inappropriately approved under delegated authority.

            On August 24, 2010, we provided a draft of this NFR to SBA management for
            comment. On September 17,2010, SBA submitted its formal comments, which
            are contained in their entirety in Appendix II. SBA agreed with all three
            recommendations. A summary of SBA's comments and the OIG's response is
            provided below.
                                                                                   2

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

Recommendation 1

SBA agreed to review the 38 identified loans and determine if they were made to
eligible companies. SBA also noted that an affiliate of an existing ARC borrower
is not an ineligible company, and that the ARC loan to the affiliate was required to
be processed by the 7(a) Loan Guaranty Processing Center. To the extent an
identified loan was made to an affiliate of an existing ARC borrower, SBA will
review the affiliation issue under the same standards used by the Center for non­
delegated processing of such loan applications. If the Center would not have
approved the loan on a non-delegated basis based on its review of the affiliation
issue, then the Agency will find the loan ineligible.

SBA's proposal to determine whether these loans were made to affiliates and
review them under the LGPC's processing standards for non-delegated ARC loans
were responsive to recommendation 1.

Recommendation 2

SBA agreed to cancel the loan guaranties and collect the associated interest paid to
lenders for any loans determined to have been made to ineligible companies.
SBA's proposed actions were responsive to recommendation 2.

Recommendation 3

SBA agreed to conduct an analysis of loan data for ARC loans made between
April 30, 2010 and September 30, 2010, to identify other possible lender-approved
ARC loans that may have been made to affiliated companies and to take
appropriate action. SBA's proposed actions were responsive to
recommendation 3.
                                                                                   3

ACTION REQUIRED

Please provide your management response for recommendations 1,2 and 3 on the
attached SBA Forms 1824, Recommendation Action Sheet, within 30 days from
the date of this report. Your responses should identify the specific actions taken or
planned to fully address each recommendation and the target dates for completion.

We appreciate the courtesies and cooperation of the Office of Capital Access. If
you have any questions concerning this NFR, please contact me or Debra Mayer,
Director, Recovery Oversight Group, at 202-205- [FOIA ex. 2]


Attachment
                                                                                     4




                       u.s. Small Business Administration
                           Office of Inspector General


                    Notice of Finding and Recommendation


Audit LocationlDivision      Office of Capital Access
                            ----------~-----------------------------



Date                        _S_e~p_te_m_b_e_r_2_2~,_2_0_10_ ________________________

Description of Issue         Lender-Approved ARC Loans to Affiliates

BACKGROUND:

The purpose of this Notice of Finding and Recommendation (NFR) is to inform
you of an issue that was identified during our audit of the America's Recovery
Capital (ARC) Loan Program. As part of this audit, we reviewed SBA's loan
database to test controls related to the approval of loans to affiliated businesses.
For the purposes of this analysis, we reviewed data on ARC loans, which had been
disbursed by April 30, 2010.

CONDITION:

We identified 38 lender-approved ARC loans, valued at $1.2 million, made to
what appear to be affiliated companies that were not approved by SBA, as
required by the ARC Loan Program procedural guide. Of the 38 loans, 29 were
identified as potentially affiliated loans due to common social security numbers.
The remaining nine loans were initially identified as potentially affiliated loans
due to common addresses. An additional review of SBA's Electronic Loan
Information Processing System revealed further evidence of affiliation for these
loans, such as familial relationships between the business' owners. Furthermore,
two of these loans appear to have been made to apartment buildings, and as such
would be ineligible as passive businesses.

See Appendix I for a listing of the loans discussed in this NFR.
                                                                                      5

CRITERIA:

ARC Procedural Guide item 3.i., "Multiple ARC Loans," states that: a small
business concern must not receive more than one ARC loan. The ARC loan can
be used to make payments of principal and/or interest on more than one qualifying
small business loan. Additional ARC loans may be made to affiliated entities, but
must be processed through the Loan Guaranty Processing Centers. Loans to
affiliates cannot be submitted under any delegated authority.

13 CFR § 121.103 provides SBA's general criteria for determining affiliation. It
states that concerns and entities are affiliates of each other when one controls or
has the power to control the other, or a third party or parties controls or has the
power to control both. It further states that SBA considers factors such as
ownership, management, previous relationships with or ties to another concern,
and contractual relationships, in determining whether affiliation exists.

Under SOP 50 10 5(A), Chapter 2, Section III.D., apartment buildings are
considered ineligible passive businesses.

CAUSES:

Lenders did not comply with SBA requirements for ARC loan approval, indicating
a lack of due diligence and a lack of appropriate control procedures to ensure
compliance.

Appropriate system controls were not in place to automatically identify affiliated
companies applying for ARC loans to ensure that loans to affiliates are not
approved under delegated authority.

EFFECT:

Inadequate safeguards for preventing ineligible businesses from receiving ARC
loans may have resulted in misuse of Recovery Act funds.

RECOMMENDATIONS:

We recommend that the Associate Administrator for Capital Access:

   1. 	 Review each of the 38 identified loans to determine if they were made
        to eligible companies.
                                                                                  6


2. 	 For any loans that SBA determines were made to ineligible companies,
     cancel the loan guaranties and collect any associated interest paid to the
     lenders.

3. 	 Conduct additional reviews of ARC loans outside the scope of this NFR
     (for example, loans disbursed after April 30, 2010 and/or undisbursed
     loans) to identify other ARC loans made to affiliated companies that were
     inappropriately approved under delegated authority.
                                                                                                                            7

APPENDIX I. LENDER-APPROVED ARC LOANS TO APPARENT AFFILIATES

Loan      I Borrower{s)       Approval   Lender                               Issues
Numbers                       Date
                              12/3/09    United Community Bank                Same SSN
                              12/8/09
                              8/17/09    Virginia Company Bank                Same SSN
                              8/17/09
                              7/13/09    Cornerstone Community Bank           Same SSN
                              7/21/09
                              10/27/09   Traditional Bank, Inc.               Same SSN, different lenders
                              11/20/09   Whitaker Bank, Inc.
                              9/2/09     Peoples Bank                         Same SSN
                              9/2/09
                              9/15/09
                              12/15/09   Flathead Bank of Bigfork             Same SSN
             [FOIA ex. 4]
                              12/15/09
                              8/10/09    Viking Savings Bank                  Same SSN
                              9/3/09                                          Loans to apartment buildings are ineligible
                              10/29/09   Flathead Bank of Bigfork             Same SSN
                              10/29/09
                              8/6/09     Virginia Company Bank                Same SSN and address
                              9/11/09
                              12/24/09   Peoples Bank                         Same SSN
                              2/10/10
                              11/17/09   North American Banking               Same SSN
                              11/23/09   Company
                              10/30/09   Peoples Bank                         Same SSN and address
                              10/30/09
                              3/18/10    Security State Bank - Fergus Falls   Same SSN and address
                                                                                rd
                              3/18/10                                         (3 loan is under 50% owner family member's
                              3/19/10                                         SSN, same address)
                                                                                                                      8

APPENDIX I. LENDER-APPROVED LOANS TO APPARENT AFFILIATES (continued)

Loan      Borrower(sl           Approval   Lender                        Issues
Numbers                         Date
                                3/4/10     Peoples Bank                  Same SSN and address
                                3/4/10
                                9/18/09    State Bank of Southern Utah   Same address; family members appear to own
                                10/6/09                                  busi nesses separately
          [FOIA ex. 4]
                                12/23/09   Peoples Bank                  Same address; family members appear to own
                                12/24/09                                 busi nesses separately
                                9/15/09    Regions Bank                  Same address and ownership group
                                11/30/09
                                9/23/09    Peoples Bank                  Same address; family members appear to own
                                9/30/09                                  busi nesses separately
                                                                                                9

APPENDIX II. AGENCY COMMENTS 





                        u.s. SMALL BUSINESS ADMINISTRATION
                                    WASHINGTON,   DC 20416




                                      MEMORANDUM 


                                      September 17, 2010 



TO:           Debra S. Ritt
              Assistant Inspector General for Auditing

FROM:         Eric R. Zarnikow lSI Original Signed
              Associate Administrator for Capital Access

SUBJ:         Draft Notice of Finding and Recommendation on Lender-Approved
              ARC Loans to Affiliates
              Project Number 10506A


Thank you for the opportunity to review the subject report. As you know, the Recovery Act
created the America's Recovery Capital Loan program to provide loans to viable small
businesses experiencing economic hardship. SBA is proud of its record of implementing the
ARC Loan program in a prudent and expeditious manner in order to support small businesses as
part of the economic recovery. We appreciate the role the Office ofInspector General (OIG)
plays in assisting management in ensuring that these programs are effectively managed.
Management's response to the recommendations included in the draft report is as follows:

   1. 	 Review each ofthe 38 identified loans to determine ifthey were made to eligible
        compames.

   SBA agrees with the recommendation to review the 38 identified loans and determine if they
   were made to eligible companies. We note, however, that an affiliate of an existing ARC
   borrower is not an ineligible company, rather the ARC loan to the affiliate was required to be
   processed by the 7(a) Loan Guaranty Processing Center (7(a) LGPC). To the extent an
   identified loan was made to an affiliate of an existing ARC borrower, we will review the
   affiliation issue under the same standards used by the 7(a) LGPC for non-delegated
   processing of such loan applications. If the 7(a) LGPC would not have approved the loan on
   a non-delegated basis based on its review of the affiliation issue, then we will find the loan
   ineligible.
                                                                                                  10

   2. 	 For any loam. that SRA determine,,, were made to ineligible companie,.., cancel the loan
        guaranties and collect any associated interest paid to the lenders.

   SBA agrees with the recommendation that any loans determined to have been made to
   ineligible companies should have the loan guaranties cancelled and the associated interest
   paid to the lenders collected.

   3. 	 Conduct additional reviews ofARC loans outside the scope ofthe NFR (for example,
        loans disbursed after April 30, 2010, and/or undisbursed loans) to identify other ARC
        loans made to affiliated companies that were inappropriately approved under delegated
        authority.

   SBA agrees with the recommendation to conduct an analysis of loan data for ARC loans
   made between April 30, 2010 and September 30,2010 to identify other possible lender­
   approved ARC loans that may have been made to affiliated companies and take appropriate
   action.


Again, thank you for the opportunity to review the draft report. Please let us know if you need
additional information or have any questions regarding our response.
